                                   Management Letter 10-06

                            Security Conditions in Research Rooms

On March 15, 2010 the OIG issued a management letter informing the Archivist of the results of
an unannounced visit of the research room at a NARA facility. OIG staff questioned research
room staff on their roles and duties related to physical security and theft prevention/detection,
and evaluated certain security equipment. We found the lack of viable security equipment,
paired with ineffectual operational security fostered an environment in which holdings were at
constant risk of theft. This management letter is being withheld from release in its entirety under
FOIA exemption b(2) due to the security threat to NARA’s holdings if the specific deficiencies
were to become public.”
